      Department of Homeland Security





           FEMA Public Assistance Grant Funds 

           Awarded to Town of Fairfax, California 





DS-12-01                                         December 2011

                                                                                Office ofInspector General

                                                                                U.S. Department of Homeland Security
                                                                                Washington, DC 20528




                                                                                Homeland
                                                                                Security
                                             DEC 1 6 2011

MEMORANDUM FOR:                      Nancy Ward
                                     Regional Administrator, Region IX
                                     Federal Emergency Management Agency

FROM:                                D. Michael    BeaC")t~ ~
                                     Acting Assistan~~pector General
                                     Office of Emergency Management Oversight

SUBJECT:                             FEMA Public Assistance Grant Funds Awarded to
                                      Town ofFairfax, California
                                     FEMA Disaster Number 1628-DR-CA
                                     Audit Report Number DS-12-01

We audited Public Assistance (PA) grant funds awarded to the Town of Fairfax, California (Town),
Public Assistance Identification Number 041-23168-00. Our audit objective was to determine
whether the Town accounted for and expended Federal Emergency Management Agency (FEMA)
grant funds according to federal regulations and FEMA guidelines.

The Town received a PA award of$I.9 million from the California Emergency Management Agency
(Cal EMA), 1 a FEMA grantee, for debris removal, emergency protective measures, and permanent
repairs to facilities damaged as a result of flooding that occurred from December 17, 2005, through
January 3, 2006. The award provided 75% FEMA funding for 7 large and 10 small projects? The
audit covered the period from December 17, 2005, to November 17,2011. We audited six large
projects and three small projects totaling $1.7 million, or 90% ofthe total award (see Exhibit,
Schedule of Audited Projects).

We conducted this performance audit pursuant to the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based upon our audit objective. We
conducted this audit according to the statutes, regulations, and FEMA policies and guidelines in
effect at the time of the disaster.

We discussed issues related to this audit with FEMA, Cal EMA, and Town officials; reviewed
judgmentally selected samples of project costs (generally based on dollar value); and performed other

1 At the time of the disaster, the grantee's name was the Governor's Office of Emergency Services, which became part of
Cal EMA on January 1, 2009.
2 Federal regulations in effect at the time of the disaster set the large project threshold at $57,500.
procedures considered necessary to accomplish our objective. We did not assess the adequacy of the
Town’s internal controls applicable to grant activities because it was not necessary to accomplish our
audit objective. We did, however, gain an understanding of the Town’s method of accounting for
disaster-related costs and its procurement policies and procedures.


                                       RESULTS OF AUDIT

Of the $1.7 million we reviewed, Town officials did not account for and expend $602,158 according
to federal grant regulations and FEMA guidelines. Table 1 summarizes the questioned costs.
Further, the Town had a remaining unused award amount of $207,000 that should be deobligated and
put to better use (finding D).

          Table 1: Summary of Questioned Costs Recommended for Disallowance
  Finding                       Subject                        Net Questioned Costs
     A                        Procurement                                   $206,034
     B                   Professional Services                               345,217
     C                     Accounting Error                                   50,907
  TOTAL                                                                     $602,158

Finding A: Noncompetitive Procurement

Town officials did not comply with federal grant regulations and FEMA guidelines in the solicitation
and award of five contracts totaling $551,251 for construction management, engineering, and design
services for Projects 2224, 2330, 2338, 2345, and 3041 (see table 2). As a result, full and open
competition did not occur, and FEMA had no assurance that the Town paid reasonable prices.

Federal grant regulations covering procurement under a grant, codified at 44 CFR 13.36, required the
Town to—

       Perform procurement transactions in a manner providing full and open competition unless
       noncompetitive proposals were permitted. Procurement by noncompetitive proposal is
       permitted when the award of a contract is infeasible under small purchase procedures, sealed
       bids, or competitive proposals, and there is a public exigency or emergency for the
       requirement that will not permit a delay resulting from competitive solicitation. (44 CFR
       13.36 c)(1) and (d)(4)(i)(B))

       Take all necessary affirmative steps to ensure that minority firms, women’s business
       enterprises, and labor surplus area firms are used when possible. (44 CFR 13.36(e)(1))

       Maintain records sufficient to detail the significant history of the procurement, including the
       rationale for the method of procurement, contractor selection, type of contract, and contract
       price. (44 CFR 13.36 b)(9))

       Prepare a cost or price analysis in connection with every procurement action, including
       contract modifications. (44 CFR 13.36(f)(1))


                                                   2
       Include mandatory contract provisions detailed in 44 CFR 13.36(i)

In addition, FEMA’s Public Assistance Guide (FEMA 322, October 1999, p. 39) specifies that—

       Contracts must be of reasonable cost, generally must be competed, and must comply with
       federal, state, and local procurement standards.

       Noncompetitive proposals should be used only when the award of a contract is not feasible
       under small purchase procedures, sealed bids, or competitive proposals, and one of the
       following circumstances applies: (1) the item is available only from a single source, (2) an
       emergency requirement will not permit a delay, (3) FEMA authorizes noncompetitive
       proposals, or (4) solicitation from a number of sources has been attempted, and competition is
       determined to be inadequate.

      Table 2: Construction Management, Engineering, and Design Services Contracts
                           Took All   Maintained                 Included
                                                   Prepared                  Questioned
Project  Competitively Necessary      Sufficient               Mandatory
                                                   Cost/Price                 Contract
Number      Procured?    Affirmative Procurement                 Contract
                                                   Analyses?                   Costs
                            Steps?     Records?                Provisions?
  2224         No             No          No           No           No           $89,641
  2330         No             No          No           No           No           142,809
  2338         No             No          No           No           No           100,445
  2345         No             No          No           No           No             93,090
  3041         No             No         No            No           No           125,266
TOTAL                                                                          $551,251

Town officials did not solicit competitive bids in awarding contracts for the projects. Instead, they
awarded these contracts to the contractor they used before the disaster. The Town could not justify
why full and open competition did not occur when exigency was not a factor and the work was
permanent in nature. Full and open competition increases the opportunity for obtaining reasonable
pricing from the most qualified contractors and allows minority firms, women’s business enterprises,
and labor surplus area firms to participate in federally funded work. In addition, full and open
competition helps discourage and prevent favoritism, collusion, fraud, waste, and abuse.

By awarding the contracts noncompetitively, Town officials did not follow other mandatory federal
procurement criteria (identified in table 2). Specifically, they did not (1) take all necessary
affirmative steps to ensure that minority firms, women’s business enterprises, and labor surplus area
firms were used when possible; (2) maintain records including the rationale why the procurement was
not competed:, (3) prepare a cost or price analysis for each procurement action; and (4) include
required provisions within their contracts.

Therefore, $551,251 of contract costs is ineligible because the Town did not comply with federal
procurement regulations and FEMA guidelines. This amount includes $345,217 in costs that we
determined to be excessive and unreasonable (see finding B). To avoid duplicate questioned costs,
the net amount questioned and recommended for disallowance within this finding is $206,034
($551,251 less $345,217).

                                                  3
Finding B: Excessive and Unreasonable Professional Services

Town officials charged $345,217 in excessive and unreasonable construction management,
engineering, and design service costs for Projects 2330, 2338, 2345, and 3041 (see table 3). FEMA
officials estimate these costs as a percentage of total construction cost. However, instead of limiting
charges for these services to between 11% and 19% of construction costs (which FEMA calculated
and approved as reasonable), the Town charged as much as 48% to 90% of construction costs for
these services.

Federal rules and FEMA guidelines stipulated that a cost is reasonable if the cost—

        In its nature and amount does not exceed that which would be incurred by a prudent person
        under the circumstances prevailing at the time the decision was made to incur the cost. (Office
        of Management and Budget Circular A-87, Revised, Appendix A, section C.2)

        Is both fair and equitable for the type of work being performed. (FEMA 322, October 1999, p.
        34)

Reasonable costs can be determined by using historical documentation for similar work; average
costs for similar work in the area; published unit costs from national cost estimating databases; and
FEMA cost codes. (FEMA 322, October 1999, p. 34)

                 Table 3: Construction Management, Engineering and Design Services
                                                                        % Exceeding
                           FEMA         FEMA
              Total                                Town       Town         FEMA                        Total
Project                   Estimated Estimated
           Construction                          Claimed Claimed          Estimated                  Questioned
Number                        %           $
              Costs                                 %            $         Allowed                     Costs
                          Allowable Allowable
                                                                           Amount
 2330          $299,945       15.3%      $45,891    47.6%    $142,809           32.3%                    $96,918
 2338           164,938       11.2%       18,473    60.9%      100,445          49.7%                     81,972
 2345           103,000       14.5%       14,935    90.4%       93,090          75.9%                     78,155
 3041           193,200       19.2%       37,094    64.8%      125,266          45.6%                     88,172
TOTAL          $761,083                 $116,393             $461,610                                   $345,217

FEMA used Cost Curve B to estimate the engineer and design services for Projects 2330, 2338, 2345,
and 3041 due to their minimal design and average complexity, and included percentages separately
for construction management.3 FEMA calculated the reasonable percentages for the various projects
to be between 11% and 19%, depending on the project. However, the Town charged between 48%
and 90% for these services.

Using FEMA’s calculations, we determined that the cumulative amount allowable for these projects
was $116,393. By subtracting this eligible amount from the actual costs charged ($461,610 less
$116,393), we determined that Town officials charged a total excess of $345,217 to these projects.4



3
  More information on FEMA’s cost curves can be found in the FEMA Public Assistance Guide (FEMA 322, October
1999), pp. 75–80.
4
  Some dollar amounts have been rounded for consistency.
                                                       4
Therefore, we question as ineligible $345,217 in excessive and unreasonable costs for Projects 2330,
2338, 2345, and 3041.




                               Project 3041 – replacement bridge (left) and

                        Project 2330 – tennis court and embankment repair (right)

                                 Source: OIG site visit (September 14, 2011)

Finding C: Accounting Error

The Town recorded $111,027 in costs for Project 2122 that included $47,407 in charges pertaining to
another FEMA-funded project. In addition, accounting records for Project 2330 included $3,500 in
cost for tree planting that FEMA had determined ineligible.

Therefore, we question $47,407 in ineligible cost to Project 2122 and $3,500 in costs charged to
Project 2330, for a total of $50,907.

Finding D: Funds Not Used

FEMA approved $207,000 in hazard mitigation funding for Project 2338 that the Town did not use.
Therefore, FEMA should deobligate the $207,000 and put those federal funds to better use.



                                     RECOMMENDATIONS

We recommend that the FEMA Region IX Administrator, in coordination with Cal EMA:

Recommendation #1: Disallow $206,034 (federal share $154,526) in ineligible contract costs
incurred without compliance with federal regulations and FEMA guidelines for Projects 2224, 2330,


                                                    5

2338, 2345, and 3041 (finding A). The combined recommended disallowance for the projects is
$551,251.

Recommendation #2: Disallow $345,217 (federal share $258,913) in ineligible, excessive, and
unreasonable costs for construction management, engineering, and design services for Projects 2330,
2338, 2345, and 3041 (finding B). The combined recommended disallowance for the projects is
$551,251.

Recommendation #3: Disallow $50,907 (federal share $38,180) in ineligible project costs charged
in error to Project 2122 and Project 2330 (finding C).

Recommendation #4: Deobligate $207,000 (federal share $155,250) in unused hazard mitigation
funding for Project 2338, and put those federal funds to better use (finding D).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of this audit with Town officials during our audit, and have included their
comments in this report, as appropriate. We also provided written summaries of our findings and
recommendations in advance to FEMA, Cal EMA, and the Town on November 16, 2011. We
discussed these findings and recommendations at exit conferences held with Cal EMA and Town
officials on November 17, 2011. Town officials disagreed with findings A and B, and agreed with
findings C and D. FEMA and Cal EMA officials withheld further comment until after we issue our
final report.

Within 90 days of the date of this memorandum, please provide our office with a written response
that includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendations. Until your
response is received and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over
the Department of Homeland Security. To promote transparency, this report will be posted to our
website. Significant contributors to this report were Humberto Melara, Devin Polster, Louis Ochoa,
Paul Sibal, Renee Gradin, and Elizabeth Finn.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Humberto Melara at (510) 637-1463.


cc:	   Audit Liaison, FEMA Region IX
       Administrator, FEMA
       Audit Liaison, FEMA (Job Code G-11-037)
       Audit Liaison, DHS




                                                  6

                                                                                              EXHIBIT



                                         Schedule of Audited Projects

                                    December 17, 2005, to November 17, 2011

                                         Town of Fairfax, California

                                     FEMA Disaster Number 1628-DR-CA



                                        Questioned Costs Recommended for Disallowance
                                                   Construction
                                                                                  Total
                       Project                     Management,                              Funds Not
      Project                                                    Accounting Questioned
                       Award       Procurement     Engineering,                               Used
      Number                                                        Error        Costs:
                       Amount       (Finding A)     and Design                             (Finding D)
                                                                 (Finding C)    Findings
                                                      Services
                                                                                 A+B+C
                                                    (Finding B)
       1845             $299,249
       2122 5             33,121                                    $47,407      $47,407
       22245              54,631       $89,641                                    89,641
       2330              427,528        45,891          $96,918       3,500      146,309
       2338              607,160        18,473           81,972                  100,445      $207,000
       2345              112,616        14,935           78,155                   93,090
       2476               62,969
       30345               6,241
       3041              125,765        37,094           88,172                  125,266
       Total          $1,729,280      $206,034         $345,217     $50,907     $602,158      $207,000




5
    Small projects.
                                                        7
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
